             Development and Implementation of an
                  Enterprise Business System

                           June 2004

                Reference Number: 2004-1C-112




 This report has cleared the Treasury Inspector General For Tax
    Administration disclosure review process and information
determined to be restricted from public release has been redacted
                       from this document.
                                     DEPARTMENT OF THE TREASURY
                                        WASHINGTON, D.C. 20220



INSPECTOR GENERAL
      for TAX
  ADMINISTRATION



                                            June 21, 2004


       MEMORANDUM FOR DAVID A. GRANT
                      DIRECTOR OF PROCUREMENT
                      INTERNAL REVENUE SERVICE




       FROM:                  Daniel R. Devlin
                              Assistant Inspector General for Audit (Headquarters Operations
                              and Exempt Organizations Programs)

       SUBJECT:               Development and Implementation of an Enterprise Business
                              System (Audit #20041C0230)


       The Defense Contract Audit Agency (DCAA) provided auditor involvement concerning
       the contractor’s development and implementation of an Enterprise Business System
       (EBS) in accordance with DCAA audit guidance. The purpose of the assignment was to
       continue DCAA’s efforts concerning the contractor’s conversion to an EBS by
       January 1, 2004. Accordingly, the DCAA provided oversight concerning control
       requirements as well as comments on concerns identified during the development of the
       EBS. Also, subsequent to the contractor’s January 1, 2004, implementation of the EBS,
       the DCAA performed data conversion accuracy tests and tests of initial accounting data
       generated by the EBS.
       The DCAA’s involvement to date has not disclosed any system design and configuration
       issues that would have a significant adverse impact to the Federal Government.
       However, the DCAA has noted that the contractor currently maintains an “Issues Log”
       that describes various problems encountered by users of the EBS and associated
       corrective actions by functional area.
       In August 2004, the DCAA will initiate an accounting system audit to verify corrections
       of functional area issues and to perform tests designed to render an opinion on the
       contractor’s overall accounting system and related internal controls.
       The information in this report should not be used for purposes other than those intended
       without prior consultation with the Treasury Inspector General for Tax Administration
       regarding their applicability.
                                          2




If you have any questions, please contact me at (202) 622-8500 or John R. Wright,
Director, at (202) 927-7077.


Attachment
                                NOTICE:
The Office of Inspector General for Tax Administration has no objection to the
release of this report, at the discretion of the contracting officer, to duly
authorized representatives of the contractor.

The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to
the public.

This report may not be released without the approval of this office, except to an
agency requesting the report for use in negotiating or administering a contract
with the contractor.

                  The TIGTA seal was removed due to its size.
